Report No. D-2008-134           September 22, 2008




Acquisition of the B-1 Fully Integrated Data Link
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
AESG                   Aeronautical Systems Group
AFPEO/AC               Air Force Program Executive Officer/Aircraft Systems
APB                    Acquisition Program Baseline
CLIP                   Common Link Integration Processing
FIDL                   Fully Integrated Data Link
GAO                    Government Accountability Office
IG                     Inspector General
LRIP                   Low-Rate Initial Production
SDD                    System Development and Demonstration
                                      INSPECTOR GENERAL
                                     DEPARTMENT OF DEFENSE
                                       400 ARMY NAVY DRIVE
                                  ARLINGTON, VIRGINIA 22202-4704




                                                                               September 22, 2008

MEMORANDUM FOR ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)


SUBJECT: Report on the Acquisition of the B-1 Fully Integrated Data Link
         (Report No, D-2008-134)

We are providing this report for your information and use, We considered your comments on a
draft of this report when preparing the final report

Comments on the draft of this report conformed to the requirements of DoD Directive 7650,3 and
left no unresolved issues, Therefore, we do not require any additional comments,

We appreciate the courtesies extended to the staff. Please direct questions to Mr. John E. Me1ing
at (703) 604-9091 (DSN 664-9091) or Mr. Kevin W, Klein at (703) 604-9032 (DSN 664-9032),
The team members are listed inside the back cover.




                                                               t:3.
                                            Richard B, Jolliffe
                                            Assistant Inspector General
                                            Acquisition and Contract Management
Report No. D-2008-134 (Project No. D2007-D000AE-0253.000)                   September 22, 2008

              Results in Brief: Acquisition of the B-1 Fully
              Integrated Data Link
                                                              the CLIP software in the B-1 FIDL
              What We Did                                     development as a technology
We reviewed the Air Force’s preparation of the                development strategy would.
B-1 Fully Integrated Data Link (FIDL) program             •   Using the immature CLIP software in
for the low-rate initial production phase of the              the development of the B-1 FIDL
acquisition process. The B-1 FIDL program                     contributed to the program breaching its
will provide the B-1 aircraft combat forces with              schedule by 10 months and incurring
integrated data links for both line-of-sight and              contract cost overruns of $23 million.
beyond line-of-sight communication capability             •   Continued delays in the development
for enhanced situational awareness, command                   and integration of CLIP software in the
and control connectivity, and weapons                         B-1 FIDL program may result in further
management. The Common Link Integration                       schedule delays and costs increases.
Processing (CLIP) software is being provided to
the contractor as Government-furnished                 What We Recommend
equipment in the B-1 FIDL development effort.          We recommend that:
As of July 2008, the program’s funding to                • the Air Force Program Executive Officer
develop and procure the system totaled                       for Aircraft Systems direct the
$472 million, with $242 million in research,                 326 Aeronautical Systems Group to
development, test, and evaluation funds and                  prepare a technology development
$230 million to procure 67 kits.                             strategy to support the program’s low-
                                                             rate initial production decision.
What We Found                                            • the Air Force Program Executive Officer
We determined that the Air Force Program                     for Aircraft Systems not approve the
Executive Officer for Aircraft Systems                       B-1 FIDL program for low-rate initial
prematurely approved the B-1 FIDL program                    production until the CLIP software
for program initiation even though the CLIP                  technology is mature and the B-1 FIDL
software, a critical B-1 FIDL technology, had                has demonstrated, with the inclusion of
not been demonstrated in a relevant or an                    the CLIP software, acceptable
operational environment to be considered                     performance in developmental, test and
mature enough to support system development.                 evaluation, and operational assessment.

   •   Instead of a technology development             Client Comments and Our
       strategy, a 326 Aeronautical Systems            Response
       Group representative stated that the
                                                       The Air Force Program Executive Officer for
       program office prepared a systems
                                                       Aircraft Systems agreed with our
       engineering plan that identified a
                                                       recommendations. We consider the reply
       technology insertion strategy. The
                                                       responsive to our recommendations and do not
       technology insertion strategy did not
                                                       require any additional comments.
       address maturation of the CLIP software
       technology or alternatives to the use of



                                                   i
Report No. D-2008-134 (Project No. D2007-D000AE-0253.000)        September 22, 2008



Recommendations Table
Client                           Recommendations            No Additional Comments
                                 Requiring Comment          Required
Air Force Program Executive                                 1. and 2.
Officer for Aircraft Systems




                                             ii
Table of Contents

Results in Brief                                                  i

Introduction                                                      1

       Objectives                                                 1
       Background                                                 1


Finding: Approval of the Fully Integrated Data Link for Program
         Initiation and Development                               5

       Recommendations, Client Comments, and Our Response         10

Appendices

       A. Scope and Methodology                                   12
             Review of Internal Controls                          12
             Prior Coverage                                       13
       B. Glossary                                                14
       C. Technology Readiness Levels and Their Descriptions      16

Client Comments

Air Force Program Executive Officer for Aircraft Systems          19
B-1 Bomber

Source: http://www.boeing.com/defense-space/military/b1-lancer/
Introduction
Objectives
The audit objective was to evaluate the overall management of the Air Force B-1 Fully
Integrated Data Link (FIDL) Program. Because the program is in the system
development and demonstration (SDD) phase, we determined whether management was
effectively preparing the program for the low-rate initial production (LRIP) phase of the
acquisition process. We also evaluated the internal controls as they related to the audit
objectives. Appendix B provides a glossary of technical terms used in this report.


Background
The B-1 FIDL is a major system in the SDD phase of the acquisition process. The
B-1 FIDL program began SDD in May 2005, and an LRIP decision is planned for
FY 2009.


Mission and System Description
The purpose of the B-1 FIDL program is to provide the B-1 aircraft combat forces with
integrated data links for both line-of-sight and beyond line-of-sight communication
capability for enhanced situational awareness, command and control connectivity, and
weapons management.

The integration of the B-1 FIDL system in the B-1 weapon system will allow combat
forces to exchange secure and jam-resistant digital communications in-theater with other
platforms that are equipped with line-of-sight capabilities provided by the
link 16 datalink and beyond line-of-sight communication provided through the Joint
Range Extension protocol. The real-time information available through the integration of
FIDL in aircraft platforms will decrease communication time, increase accuracy of
information exchange, and increase information flow.

The B-1 FIDL program will also expand on existing capabilities within the B-1 weapon
system. The B-1 FIDL will provide the BoneNet infrastructure for the entire B-1 weapon
system. The BoneNet is an ethernet infrastructure contained within the B-1 weapon
system and includes the hardware and open-system software infrastructure to support
integration of datalinks with:
    • front displays provided by the vertical situation display upgrade,
    • the new aft displays required for datalink, and
    • the avionics flight software.

As directed, the 326 Aeronautical Systems Group (AESG) required the contractor to use
Government-furnished equipment in the development of the B-1 FIDL. Specifically,
Government-furnished equipment provided to the contractor includes the Multi-
Functional Information Distribution System Joint Tactical Radio System and the


                                            1
Common Link Integration Processing (CLIP) software that are being developed by the
Navy. As part of the B-1 FIDL, the Multi-Functional Information Distribution System
Joint Tactical Radio System will increase B-1 aircraft communication capabilities over
the current link 16 terminals along with advanced secure communications, jam-resistant
information distribution, and precise participant location. The CLIP software is intended
to perform the link 16 message processing function. In conjunction with implementing
the CLIP software, the B-1 FIDL contractor is developing the Data Link Data Manager
that will interface with the CLIP software to provide display images to all flight crew
stations.

The CLIP software, a critical B-1 FIDL technology, was not demonstrated in a relevant
or an operational environment before initiation of the B-1 FIDL program. The
Government Accountability Office (GAO) has identified immature technology readiness
levels of critical technologies for acquisition programs in system development as a major
cause for program cost and schedule overruns. In 2008, GAO assessed 72 programs, as
part of an ongoing series of assessments, 1 and all 72 programs proceeded into the SDD
phase of the acquisition process with critical technologies that were immature. Also in
the report, GAO performed an analysis of major Defense acquisition programs, finding
that the total acquisition costs increased 26 percent in 2007 from first program cost
estimates and the average delay was 21 months for delivering initial capabilities.

Program Management
The 326 AESG Commander is developing the B-1 FIDL program 2 for the U.S. Air Force
Air Combat Command, the operational user of the B-1 program. The 326 AESG
Commander reports to the Air Force Program Executive Officer for Aircraft Systems
(AFPEO/AC) for B-1 FIDL program execution. In March 2005, the Air Force
Acquisition Executive delegated the milestone decision authority responsibility to the
AFPEO/AC for the B-1 FIDL program.

Program Rebaseline
Delays in Navy development of the CLIP software and overall contractor performance
caused the 326 AESG to breach the July 2006 threshold schedule date for its critical
design review. As a result, the AFPEO/AC approved a new acquisition program baseline
(APB) in November 2006 that extended program schedule milestone dates. Specifically,
the developmental testing schedule was extended to October 2008 from November 2007
and the LRIP decision date was extended to May 2009 from July 2008. The new APB
did not adjust the B-1 FIDL performance or cost parameters identified in the initial APB.




1
  The GAO report is “Defense Acquisitions: Assessments of Selected Weapon Programs,” March 2008
(Report No. GAO-08-467SP).
2
  The B-1 FIDL program does not have a standalone program office within the 326 AESG command for all
B-1 programs; therefore, in the report, when referring to 326 AESG, it includes all staff assigned to the B-1
FIDL program.


                                                      2
Funding and Contract
As of July 2008, the 326 AESG had $242 million in program funding to develop the
B-1 FIDL and $230 million to procure 67 B-1 FIDL kits, 3 for a total program cost of
$472 million. On June 1, 2005, the U.S. Air Force Materiel Command began the
B-1 FIDL development by awarding The Boeing Company a contract delivery order for
$154.9 million. Through December 2007, the Air Force contracting officer had increased
the contract value to $178.9 million through 27 contract delivery order modifications.

Overall Program Assessment
We determined that the 326 AESG was adequately preparing the B-1 FIDL for LRIP in
the areas of capability development, test and evaluation planning, and funding structure.
However, the 326 AESG needs to prepare a technology development strategy and to
demonstrate that the B-1 FIDL, with the inclusion of the CLIP software, has acceptable
performance in development, test and evaluation, and in an operational assessment before
the LRIP decision as discussed in the finding section of the report.




3
 Of the 67 B-1 FIDL kits that will be procured, 2 kits will be used in research, development, test, and
evaluation.


                                                     3
Finding: Approval of the Fully Integrated
Data Link for Program Initiation and
Development
The Air Force Program Executive Officer for Aircraft Systems (AFPEO/AC) prematurely
approved the B-1 FIDL program for program initiation since the CLIP software, a critical
B-1 FIDL technology, had not been demonstrated in a relevant or an operational
environment. This condition partially occurred because the B-1 Program Manager
prepared alternative documentation to satisfy the requirement to prepare a technology
development strategy. The alternative documentation did not address the maturation of
the CLIP software technology or identify other alternatives to using the CLIP software
that should have been addressed in developing a technology development strategy. This
condition also occurred because the AFPEO/AC accepted the recommendation of the B-1
Program Manager 4 for program initiation even though the CLIP software technology was
not mature enough to support system development. As primarily the result of the
program office not providing the contractor with mature CLIP software, as Government-
furnished equipment, the 326 AESG breached the approved program schedule by
10 months and incurred increased contract costs of $23 million. It also resulted in the
326 AESG Commander having to obtain approval of a revised acquisition program
baseline agreement. In addition, because CLIP software development problems have not
been fully resolved, the 326 AESG may experience further program schedule delays and
increased program costs.

Program Management Criteria
DoD Instruction 5000.2, “Operation of the Defense Acquisition System,” May 12, 2003,
and the Defense Acquisition Guidebook provide guidance on the Defense Acquisition
System. In addition, Air Force Instruction 63-101, “Operations of Capabilities Based
Acquisition System,” July 29, 2005, and The DoD Technology Readiness Assessment
Deskbook, May 2005, provide guidance for developing technology readiness assessments
and technology development strategies for acquisition programs.

DoD Instruction
DoD Instruction 5000.2 requires that programs entering the SDD phase of the acquisition
process have mature software with approved requirements and funding. It states that the
management and mitigation of technology risk, which allows less costly and less time-
consuming systems development, is a crucial part of overall program management and is
especially relevant to meeting cost and schedule goals. Further, the Instruction states that
technology procured from industry or other sources should have been demonstrated in a
relevant or an operational environment to be considered mature enough to use for product
development in systems integration based on the performance of technology readiness


4
    The B-1 Program Manager is the 326 Aeronautical Systems Group Commander.


                                                  5
assessments. If technology is not mature, the DoD Component should use alternative
technology that is mature and that can meet the user’s needs. Technology maturation and
demonstration needs are the basis of a program’s technology development strategy.
Further, the Instruction states that acquisition program entry into the LRIP phase of the
acquisition process is dependent on software maturity and acceptable performance in
development, test and evaluation, and operation assessments.

Defense Acquisition Guidebook
The Defense Acquisition Guidebook identifies nine technology readiness levels that
program offices are to use in making an assessment of the demonstrated technology
capabilities and technological maturity of critical technologies. The Guidebook further
states that, when making milestone decisions for acquisition programs, decision
authorities are to consider the recommended technology readiness levels of critical
program technologies. Technology readiness levels of critical program technologies are
needed to support milestone decisions when decision authorities are assessing program
risk and readiness for the next phase of the acquisition process. As shown in
Appendix C, a determination that a critical program technology is at technology readiness
level 6 indicates that a representative model or prototype system has been tested in a
relevant environment. Appendix C contains definitions of all nine technology readiness
levels.

Air Force Instruction
Air Force Instruction 63-101 requires that the milestone decision authority obtain an
objective technology readiness assessment of critical program technologies for milestone
decision consideration in support of the SDD decision and the production decision. The
Instruction states that the assessment is to determine whether critical technologies are
sufficiently mature for product development and LRIP. It also states that the milestone
decision authority determines who will prepare the technology development strategy in
support of the program initiation milestone decision as required by DoD Instruction
5000.2. Air Force Instruction 63-101 states that this process should result in higher
fidelity requirements that are time-phased to a more realistic schedule with more accurate
cost estimates.

DoD Technology Readiness Assessment Deskbook
The DoD Technology Readiness Assessment Deskbook states that technology readiness
assessments should be performed near the completion of the technology development
phase of the acquisition process to ensure that a program does not enter SDD relying on
immature technologies. It states that all critical technology elements should be identified
and demonstrated successfully at a technology readiness level of 6 or higher before the
decision is made to initiate a program.

Entry Into System Development and Demonstration
The AFPEO/AC approved the B-1 FIDL program for program initiation and entry in the
SDD phase of the acquisition process in May 2005, even though the program office


                                             6
determined, before the milestone decision review, that the technology risk for several
technologies, including the CLIP software, was high for the B-1 FIDL program.

Technology Risk
In July 2004, the 326 AESG completed a risk assessment that determined that the CLIP
software was a high-risk critical component of the B-1 FIDL program. However, the
AFPEO/AC approved the B-1 FIDL program’s entry into the SDD phase in spite of the
DoD Instruction 5000.2 requirement that technology from other sources will have been
demonstrated in a relevant or operational environment to be considered mature enough to
use for product development in systems integration. In June 2005, shortly after the
program initiation decision for the B-1 FIDL program, the Assistant Secretary of the
Navy for Research, Development, and Acquisition, the milestone decision authority for
the CLIP software program, established as an exit criteria from the SDD phase of the
acquisition process, that the CLIP Program Office obtain a successful operational
assessment that the CLIP software had demonstrated software maturity.

Immediately after program initiation, the 326 AESG, as part of Air Force Materiel
Command, also performed a program management review of the B-1 FIDL Program in
June 2005. The review identified that the CLIP software development schedule may not
meet the B-1 FIDL schedule requirements and suggested that the 326 AESG request a
fallback plan from the contractor. The 326 AESG did not act on the suggestion at that
time.

CLIP Software Technology Maturity Level
When the B-1 FIDL program was initiated in May 2005, the Navy had not yet approved
the CLIP software program as an acquisition program or entry into the SDD phase of the
acquisition process. Even so, the 326 AESG assessed the technology maturity of the
CLIP software at technology readiness level 6 in its technology readiness assessment
supporting program initiation. The technology readiness assessment stated:

               For software technology, [the] development of the CLIP software is
               assessed at a level 6 since it is currently under development by a joint
               USAF/USN [United States Air Force/United States Navy] program
               office. Although there is FIDL program risk (cost and schedule) due to
               the CLIP development effort, we believe the technology is available
               and similar algorithms and message processing software are in use on
               other airborne platforms.

As supported in the technology readiness assessment, the 326 AESG incorrectly assessed
the CLIP software as technology level 6 because the CLIP software had not been
demonstrated in a relevant environment. Specifically, the assessment statement that the
326 AESG believed that the technology was available and similar algorithms and
message processing software are in use on other airborne platforms does not support a
determination that the CLIP software had already been demonstrated in a relevant
environment, the criteria defined for a level 6 technology readiness assessment. Further,
the CLIP Program Office was attempting to implement specific requirements for a
layered, open architecture for the CLIP software that met requirements not satisfied by


                                                  7
any existing products, including portability; configurability; interoperability;
maintainability; modifiability; object-oriented design implemented in an embedded, real-
time environment; and a common host interface.

The CLIP Program Office did not prepare a technology readiness assessment for the
CLIP software in support of its program initiation decision in June 2005. However, in
March 2008, the CLIP Program Office did prepare a draft technology readiness
assessment that stated that the initial technology readiness of the CLIP software program
was at a technology readiness level 4. Technology readiness level 4 is defined as the
integration of basic technological components to establish that they will work together.
In the March 2008 technology readiness assessment, the CLIP Program Office revised
the CLIP software technology readiness level to technology readiness level 6 based on
test results of the CLIP software in a relevant environment. Technology readiness level 6
is the technology readiness level that critical technologies of a program should have at
program initiation.

A 326 AESG representative stated that alternative documentation to the technology
development strategy requirement in DoD Instruction 5000.2 was prepared. Because the
B-1 FIDL program did not have a technology development phase, the representative
stated that the program office prepared a systems engineering plan that identified a
technology insertion strategy. The technology insertion strategy did not address
maturation of the CLIP software technology or alternatives to the use of the CLIP
software in the B-1 FIDL development. DoD Instruction 5000.2 states that the
technology development strategy should be performed in support of the technology
development phase of the acquisition process and updated before each subsequent
milestone decision review. Further, The DoD Technology Readiness Assessment
Deskbook states that the technology development strategy is a precursor to the program
acquisition strategy and is an important prerequisite to the technology readiness
assessment.

CLIP Software Development Program
The CLIP software is a Navy-developed software application that will serve as a common
software integration solution for the B-1 weapon system, and other weapons platforms, to
allow accurate processing and exchange of tactical data with Joint and Coalition forces
over multiple types of tactical data links. The Navy approved program initiation for the
CLIP software in June 2005.

CLIP Software Capabilities and Program Management
The CLIP will provide the primary message processing capability for the B-1 FIDL and
is intended to isolate the platform from the multiple changes that occur with data link
evolutions. The Air Force Air Combat Command decided to use the CLIP software to
reduce software development costs during the SDD phase and to significantly reduce life-
cycle software support costs for link 16. When mature, the CLIP software will enable the
B-1 FIDL to meet its interoperability key performance parameter requirement. In
FY 2008, the Navy stopped funding the CLIP software program, leaving the Air Force as
the program’s only funding source. Air Force representatives stated that the Navy


                                            8
Program Executive Officer Command, Control, Communications, Computers,
Intelligence, and Space retained program execution responsibility for the CLIP software
program through successful completion of the delivery readiness review, 5 scheduled for
January 2009. Once the CLIP software program meets the goals of the delivery readiness
review, the Air Force’s Hanscom Electronic System Center will take over the full
management responsibility for the CLIP software program.

CLIP Software Development Progress
The CLIP software program has experienced development delays since it entered the
SDD phase in June 2005. Development delays that have impacted the B-1 FIDL
schedule include:

    •   In June 2006, the B-1 Program Manager reported to the AFPEO/AC delays with
        the Navy’s progress in developing the CLIP software and the B-1 FIDL prime
        contractor’s ability to timely complete the detailed design for the man-machine
        interface. This condition caused the 326 AESG to breach its critical design
        review schedule identified in the APB agreement. As a result, the program office
        had to have a new APB agreement approved that extended the B-1 FIDL SDD
        phase by at least 10 months, and to make an upward equitable price adjustment to
        the contract target price of $23 million. The revised APB included extending the
        start of developmental test and evaluation to October 2008 from November 2007
        and the LRIP decision to May 2009 from July 2008.

    •   In January 2008, the CLIP software program office announced another schedule
        slip in moving the start of the program’s acceptance test from April 2008 to
        September 2008. This will delay the performance of the delivery readiness
        review for the CLIP software from April 2008 to January 2009. The 326 AESG
        representatives stated that the schedule slip in the CLIP software acceptance test
        and the subsequent completion of link 16 functionality tests for the Data Link
        Data Manager will delay the start of the B-1 FIDL developmental test and
        evaluation flight test from July 2008 to October 2008. As a result, the 326 AESG
        does not expect that developmental test and evaluation of the B-1 FIDL will be
        completed within the schedule threshold established in the revised APB.
        Accordingly, the 326 AESG and the contractor are in the process of assessing the
        additional impact to the B-1 FIDL development schedule resulting from the CLIP
        software schedule slip.

Alternatives to the CLIP
In August 2007, the 326 AESG tasked The Boeing Company to perform an independent
study to identify industry alternatives to the CLIP software for use in the B-1 FIDL
program. The program office tasked the contractor with the study to reduce program


5
 The delivery readiness review is an internal CLIP program review used by the Assistant Secretary of the
Navy for Research, Development, and Acquisition to determine the CLIP program’s readiness for the next
acquisition phase.


                                                   9
software risk in the event that the CLIP software was not available to support the
B-1 FIDL program. In the September 2007 study, The Boeing Company concluded that
industry alternatives were not readily available that could replace the CLIP functionality
in the B-1 FIDL architecture. The alternatives that were identified would further increase
program cost and delay the schedule of the B-1 FIDL program.

A working group with representatives from the 326 AESG and the contractor continues
to monitor the CLIP software program risks. In addition, the 326 AESG stated that
development of the CLIP remained a high risk that could not be avoided with the current
program approach.

Impact on Cost and Schedule and Conclusion
The AFPEO/AC decision to initiate the B-1 FIDL program before the CLIP software, a
critical B-1 FIDL technology, was demonstrated in an operational environment led to
contract cost and schedule overruns on the B-1 FIDL program. By initiating the
B-1 FIDL program before the CLIP software was mature, the 326 AESG will most likely
incur further contract cost and schedule overruns. As of June 2008, delays in developing
the CLIP software had already caused the 326 AESG to delay the start of B-1 FIDL
developmental flight testing and the LRIP decision by 10 months and incur an upward
equitable price adjustment to the contract target price of $23 million. Further, the
326 AESG was awaiting a revised program schedule from the contractor to determine
further contract cost impacts and schedule delays.

Because the technology insertion strategy developed by the 326 AESG did not address
maturation of the CLIP software technology or alternatives to the use of the CLIP
software in the B-1 FIDL development, the 326 Aeronautical Systems Group should
prepare a technology development strategy in preparation for the B-1 FIDL program’s
LRIP decision. Further, the AFPEO/AC should not approve the B-1 FIDL program for
the LRIP phase of the acquisition process until the CLIP software is mature and the
B-1 FIDL has demonstrated, with the inclusion of the CLIP software, acceptable
performance in development, test and evaluation, and operational assessment.

Recommendations, Client Comments, and Our
Response
We recommend that the Air Force Program Executive Officer for Aircraft Systems:

       1. Direct the 326 Aeronautical Systems Group to prepare a technology
          development strategy to support the program’s low-rate initial
          production decision in accordance with DoD Instruction 5000.2,
          “Operation of the Defense Acquisition System,” May 12, 2003.


Air Force Program Executive Officer for Aircraft Systems
The Air Force Program Executive Officer for Aircraft Systems agreed with the
recommendation. He stated that he will ensure that the 326 Aeronautical System Group


                                           10
prepares a technology development strategy in support of the B-1 FIDL LRIP decision as
a part of the documentation package required by DoD Instruction 5000.2 for Milestone C
LRIP decisions. He further stated that strategy will include documentation of the
maturity of the CLIP software.

Our Response
The Air Force Program Executive Officer for Aircraft Systems comments were
responsive to the recommendation.


       2. Not approve the B-1 Fully Integrated Data Link program for low-rate
          initial production until the Common Link Integration Processing
          software technology is mature and the B-1 Fully Integrated Data Link
          has demonstrated, with the inclusion of the Common Link Integration
          Processing software, acceptable performance in developmental, test and
          evaluation, and operational assessment in accordance with DoD
          Instruction 5000.2, “Operations of the Defense Acquisition System,”
          May 12, 2003.


Air Force Program Executive Officer for Aircraft Systems
The Air Force Program Executive Officer for Aircraft Systems agreed with the
recommendation. The Air Force Program Executive Officer for Aircraft Systems stated
he will make the LRIP decision based upon the requirements of the applicable DoD and
Air Force regulations as well as upon the progress of the B-1 FIDL program in meeting
performance criteria for entrance into LRIP established at Milestone B or as subsequently
modified.

Our Response
The Air Force Program Executive Officer for Aircraft Systems comments were
responsive to the recommendation.




                                           11
Appendix A. Scope and Methodology
We conducted this audit from August 2007 through July 2008 in accordance with
generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our finding and conclusions based on
our audit objectives.

During the audit, we evaluated whether management was effectively developing and
readying the program for the low-rate initial production phase of the acquisition process.
We reviewed program documentation on requirements and capabilities, testing, systems
engineering, contracting, acquisition strategy, technology readiness assessments, and
funding dated from July 1999 through March 2008. We interviewed staff from the
offices of the Assistant Secretary of the Air Force (Acquisition); the 326th Aeronautical
Systems Group Commander for B-1 Programs; the Chief, Program Management Division
for B-1 Programs; the Program Manager, B-1 Fully Integrated Data Link Program; the
Program Manager, Common Link Integration Processing Program; and representatives
from the office of the Defense Contract Management Agency.

Review of Internal Controls
We determined that no material internal control weakness existed, as defined by DoD
Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
January 4, 2006, in the B-1 FIDL Program.

Use of Computer-Processed Data
We did not use computer-processed data to perform this audit.

Use of Technical Assistance
A computer engineer from the Technical Assessment Directorate of Policy and
Oversight, Department of Defense Office of Inspector General assisted in the audit. The
engineer evaluated and reviewed systems engineering, software, and other acquisition
planning-related documents in the B-1 FIDL program.




                                            12
Prior Coverage
During the last 5 years, the Department of Defense Inspector General (IG) issued one
report on the adequacy of Air Force’s management oversight of acquisition category I
and II programs that discussed the B-1 FIDL program. The GAO also issued a report that
assessed weapon programs and the overall trends in DOD acquisition outcomes for
decision makers to use as they determine the best ways to invest limited resources in the
face of competing demands, such as meeting best practices standards for mature
technologies. Unrestricted GAO reports can be accessed over the Internet at
http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil/audit/reports.


GAO
GAO Report No. GAO-08-467SP, “Defense Acquisition: Assessment of Selected
Weapon Programs,” March 2008

DoD IG
DoD IG Report No. D-2007-047, “Air Force Acquisition Executive’s Management
Oversight and Procurement Authority for Acquisition Category I and II Programs,”
January 23, 2007




                                           13
Appendix B. Glossary
Acquisition Program Baseline. An acquisition program baseline prescribes the key
cost, schedule, and performance constraints in the phase succeeding the milestone for
which they were developed.

CLIP Delivery Readiness Review. A delivery readiness review is an internal milestone
for the CLIP software program. The purpose of the delivery readiness review is to assess
the readiness of the CLIP software for delivery to CLIP receiving platforms. The
delivery readiness review is completed by the contractor before formal delivery of the
CLIP software to a platform for integration and operational employment.

Equitable Adjustment. An equitable adjustment may be made to contracts when
changes in terms impact the cost of performing the contract or its schedule.

Line-of-Sight. A line-of-sight is the straight path between a transmitting antenna (as for
radio or television signal) and a receiving antenna when unobstructed by the horizon.

Link 16. Link 16 (also known as tactical digital information link J) is an improved data
link used to exchange near real-time information between various military platforms.
Link 16 is a communication, navigation, and identification system that supports
information exchange between tactical command, control, communications, computers,
and intelligence systems.

Milestone Decision Authority. The milestone decision authority is the designated
individual with overall responsibility for a program. The milestone decision authority
has the authority to approve entry of an acquisition program into the next phase of the
acquisition process and is accountable for cost, schedule, and performance reporting to
higher authority, including congressional reporting.

System Development and Demonstration. System development and demonstration is
the third phase of the acquisition process. This phase consists of two efforts, system
integration and system demonstration, and begins after the program initiation milestone
decision point. At the conclusion of the system integration effort, a design readiness
review is held to determine program readiness for system demonstration.

Technology Development Strategy. The technology development strategy focuses on
the activities of the technology development phase. Where feasible, the strategy should
discuss activities associated with the post-program-initiation phases of the planned
acquisition. The technology development strategy precedes the formal acquisition
strategy and is required to support the technology development decision point. The
technology development strategy is updated at subsequent milestones and included in the
acquisition strategy.




                                            14
Technology Readiness Assessment. A technology readiness assessment is a regulatory
information requirement for all acquisition programs. It is a systematic, metrics-based
process that establishes the maturity level of critical technology elements. Appendix C
lists the nine technical readiness levels to be used in the technology readiness assessment.

Technology Readiness Level. A technology readiness level is a measure of technical
maturity of critical program technologies. The use of technology readiness levels enables
consistent, uniform discussions of technical maturity across different types of
technologies. Decision authorities are to consider the recommended technology
readiness levels of critical program technologies before making a determination as to
whether a program should progress to the next phase of the acquisition process.




                                            15
Appendix C. Technology Readiness Levels
and Their Descriptions
Technology readiness levels are a measure of technology maturity of critical program
technologies. They enable acquisition managers to hold consistent, uniform discussions
of technical maturity across different types of technologies.

Technology Readiness Level                     Description
1. Basic principles observed and reported      Lowest level of technology readiness.
                                               Scientific research begins to be translated
                                               into applied research and development.
                                               Examples might include paper studies of a
                                               technology’s basic properties.
2. Technology concept or application           Invention begins. Once basic principles are
formulated                                     observed, practical applications can be
                                               invented. Applications are speculative and
                                               there may be no proof or detailed analysis
                                               to support the assumptions. Examples are
                                               limited to analytic studies.
3. Analytical and experimental critical        Active research and development is
function or characteristic proof of concept    initiated. This includes analytical studies
                                               and laboratory studies to physically
                                               validate analytical predictions of separate
                                               elements of technology. Examples include
                                               components that are not yet integrated or
                                               representative.
4. Component or breadboard validation in       Basic technological components are
laboratory environment                         integrated to establish that they will work
                                               together. This is relatively “low fidelity”
                                               compared to the eventual system.
                                               Examples include integration of “ad hoc”
                                               hardware in the laboratory.
5. Component or breadboard validation in       Fidelity of breadboard technology increases
relevant environment                           significantly. The basic technological
                                               components are integrated with reasonably
                                               realistic supporting elements so they can be
                                               tested in a simulated environment.
                                               Examples include “high fidelity” laboratory
                                               integration of components.




                                              16
6. System/subsystem model or prototype        Representative model or prototype system,
demonstration in a relevant environment       which is well beyond that of a technology
                                              readiness level 5, is tested in a relevant
                                              environment. Represents a major step up
                                              in technology’s demonstrated readiness.
                                              Examples include testing a prototype in a
                                              high-fidelity laboratory environment or in a
                                              simulated operational environment.
7. System prototype demonstration in an       Prototype near, or at, planned operation
operational environment                       system. Represents a major step up from
                                              technology readiness level 6, requiring
                                              demonstration of an actual system
                                              prototype in an operational environment
                                              such as an aircraft, vehicle, or space.
                                              Examples include testing the prototype in a
                                              test bed aircraft.
8. Actual system completed and qualified      Technology has been proven to work in its
through test and demonstration                final form and under expected conditions.
                                              In almost all cases, this technology
                                              readiness level represents the end of true
                                              system development. Examples include
                                              developmental test and evaluation of the
                                              system in its intended weapon system to
                                              determine whether it meets design
                                              specifications.
9. Actual system proven through successful    Actual application of the technology in its
mission operations                            final form and under mission conditions,
                                              such as those encountered in operational
                                              test and evaluation. Examples include
                                              using the system under operational mission
                                              conditions.




                                             17
This Page Intentionally Left Blank




               18
Air Force Program Executive Officer for Aircraft Systems
Comments




                    Click to add JPEG file




                                   19
Click to add JPEG file




               20
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management prepared this report. Personnel of the Department
of Defense Office of Inspector General who contributed to the report are listed below.

Richard B. Jolliffe
Bruce A. Burton
John E. Meling
Kevin W. Klein
James A. Hoyt
Celia J. Harrigan
Tracey E. Dismukes
Michael Y. Kwan
Jennifer M. Haake
Meredith H. Johnson
